<html>
<title> - A REVIEW OF THE PRESIDENT'S EXECUTIVE ACTIONS ON IMMIGRATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







      A REVIEW OF THE PRESIDENT'S EXECUTIVE ACTIONS ON IMMIGRATION

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                AND THE

                      SUBCOMMITTEE ON HEALTH CARE,
                   BENEFITS AND ADMINISTRATIVE RULES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2015

                               __________

                           Serial No. 114-44

                               __________
                               
                               
                               

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  

         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-954 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
 Sean Hayes, Staff Director, Subcommittee on Health Care, Benefits and 
                          Administrative Rules
     Art Arthur, Staff Director, Subcommittee on National Security
                           Sarah Vance, Clerk
                   Subcommittee on National Security

                    RON DESANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Member
JODY B. HICE, Georgia                ROBIN KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HURD, Texas                     TED LIEU, California

     Subcommittee on Health Care, Benefits and Administrative Rules

                       JIM JORDAN, Ohio, Chairman
TIM WALBERG, Michigan,               MATT CARTWRIGHT, Pennsylvania, 
SCOTT DesJARLAIS, Tennessee              Ranking Member
TREY GOWDY, South Carolina           ELEANOR HOLMES NORTON, Distict of 
CYNTHIA M. LUMMIS, Wyoming               Columbia
MARK MEADOWS, North Carolina         BONNIE WATSON COLEMAN, New Jersey
RON DeSANTIS, Florida                MARK DeSAULNIER, California
MICK MULVANEY, South Carolina Vice   BRENDAN F. BOYLE, Pennsylvania
    Chair                            JIM COOPER, Tennessee
MARK WALKER, North Carolina          MICHELLE LUJAN GRISHAM, New Mexico
JODY B. HICE, Georgia                Vacancy
EARL L. ``BUDDY'' CARTER, Georgia




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 17, 2015....................................     1

                               WITNESSES

Ms. Sarah R. Saldana, Director, U.S. Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security
    Oral Statement...............................................     6
    Written Statement............................................     8
Mr. Leon Rodriguez, Director, U.S. Citizenship and Immigration 
  Services, U.S. Department of Homeland Security
    Oral Statement...............................................     8
    Written Statement............................................     9
Mr. John Roth, Inspector General, Office of Inspector General, 
  U.S. Department of Homeland Security
    Oral Statement...............................................     9
    Written Statement............................................    11

                                APPENDIX

Letters to Secretary Jeh Johnson, Department of Homeland Security    36
Questions and Responses to Mick Mulvaney.........................    62
Questions from Representatives Hice, Walker, and Carter..........
Statement for the hearing Record from NCAPA......................    71

 
      A REVIEW OF THE PRESIDENT'S EXECUTIVE ACTIONS ON IMMIGRATION

                              ----------                              


                        Wednesday, June 17, 2015

                  House of Representatives,
 Subcommittee on National Security, joint with the 
         Subcommittee on Health Care, Benefits and 
                              Administrative Rules,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:00 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the Subcommittee on National Security] presiding.
    Present: Representatives DeSantis, Jordan, Russell, 
Walberg, DesJarlais, Hice, Meadows, Walker, Carter, Lynch, 
Cartwright, Lieu, Norton, Kelly, DeSaulnier, and Lujan Grisham.
    Mr. DeSantis. Subcommittee on National Security and the 
Subcommittee on Healthcare, Benefits, and Administrative Rules 
convenes today to review the President's executive actions on 
immigration.
    On November 20, 2014, just 2 weeks after the 2014 midterm 
elections, President Obama made far-reaching unilateral changes 
to our Nation's immigration policy, despite saying on over 22 
different occasions that he did not have the authority to do 
so. In his address on that day, the President said that: We're 
a Nation of laws. Those who broke our immigration laws must be 
held accountable, especially those who are dangerous. That's 
why over the past 6 years, deportations of criminals are up 80 
percent. And that's why we're going to keep focusing 
enforcement resources on actual threats to our security. We 
will prioritize, just like law enforcement does every day.
    The administration's actions, however, have not matched the 
President's rhetoric. According to documents provided to the 
House Judiciary Committee by DHS in April of this year, ICE 
arrests of criminal illegal aliens has declined 32 percent from 
the same period a year before, with 51,337 administrative 
arrests of criminal aliens in fiscal year 2015 compared to 
75,171 arrests in the same period in fiscal year 2014. Those 
declines occurred across the board of criminal offenses. We 
have recently learned that between fiscal year 2010 and fiscal 
year 2014, 121 criminal illegal immigrants were charged with 
homicide following their release from ICE custody. The 
administration failed to remove these criminals from the United 
States. And 64 of those were released by ICE at its own 
discretion, not pursuant to any court order.
    It was also revealed that the administration has repeatedly 
released the same criminal aliens. At our March 19 hearing on 
the President's executive actions, the committee discussed the 
fact that in fiscal year 2013 ICE released 36,007 criminals, 
convicted criminals, that were in its custody. And we have 
learned that 1,000 of those criminals who were released have 
already been convicted again of new crimes.
    And if that were not bad enough, we have since learned that 
ICE released 156 of those repeat offenders again into American 
communities instead of returning them to their home country.
    Plainly, the President's assertion his administration will 
keep focusing enforcement resources on actual threats to our 
security is not--is contradicted by those facts. Simply put, 
the President's policy changes are not doing a good job of 
protecting the safety of the American people.
    Now, the legality of the immigration policy change has been 
called into question both by this Congress and by the Federal 
courts. And, in fact, on February 16, a Federal judge ruled 
that the administration failed to comply with the law when they 
implemented the President's executive action. In a subsequent 
order, on April 7, that same judge stated that he was, quote, 
``extremely troubled by multiple representations made by the 
government's counsel, both in the writing and orally, about the 
administration's implementation of the revisions to his 
immigration policy.''
    Taken as a whole, these facts make it clear that the 
President's unilateral changes are failing to achieve the 
stated purpose of protecting the American people. They also 
call into question the legality of certain actions taken by the 
administration in implementing those changes, and these are 
changes both in terms of the policy effect and the legality 
that they--that we will review today.
    Without objection, the chairman is authorized to declare a 
recess at any time.
    I now recognize the ranking member of the National Security 
Subcommittee, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I also want to thank our panelists for your willingness to 
testify and help the committee with its work.
    Today will mark the fourth hearing held by this committee 
since the beginning of the 114th Congress to examine the 
executive actions on immigration announced by President Obama 
in November of 2014. We have also reviewed the Department of 
Homeland Security's revised immigration enforcement policies at 
both the subcommittee and full committee level, and we have 
examined the economic impact of recent executive actions. We 
have even looked at the questionable premise that those 
executive actions will somehow encourage voter fraud in State 
and Federal elections.
    Now, I understand that these continued hearings may stem 
from disagreement over the administration's course of action on 
immigration. I have my own concerns about the precedent set by 
executive actions when it comes to other major policy issues 
that may affect future Congresses. However, I also share 
President Obama's frustration with the inability of some 
Members of Congress to support a balanced and sustainable 
immigration policy.
    Too often this immigration debate becomes a battle between 
the throw-them-all-out crowd and the let-them-all-in crowd. But 
the truth of the matter is that we simply need to develop a 
responsible and sustainable immigration policy. And I think we 
all agree that the current arrangement is not working.
    The United States has always been a nation of immigrants 
and welcoming those who would help build our country and who 
want to come here for all the right reasons. That's a 
fundamental American principle. That's why I strongly believe 
that our primary focus as lawmakers and members of this 
committee should be to make every effort to overcome the 
legislative gridlock that has defined immigration reform thus 
far so that Congress affords itself the opportunity to 
thoroughly debate and shape our Nation's immigration policy 
going forward.
    In addition, we must ensure that those Federal agencies 
responsible for immigration enforcement, such as the Department 
of Homeland Security, have the resources and tools that they 
need to do their jobs. Regrettably that is not the case. As 
noted in the Department-wide memo issued by Secretary Jeh 
Johnson in November of 2014, ``Due to the limited resources, 
DHS and its components cannot respond to all immigration 
violations or remove all persons illegally in the United 
States.'' This is especially true given that the Federal 
Government is still operating under sequestration. In addition, 
Congress recently approved a budget blueprint that contemplates 
cutting nondefense spending, including Homeland Security 
budget, by $500 million below the sequester-level spending 
caps.
    In spite of budgetary constraints, the Department of 
Homeland Security has detained and deported more individuals 
than during any other period in its history. According to the 
immigration--excuse me, the Migration Policy Institute, roughly 
1.95 million people were removed from the United States between 
2008 and 2013, those 6 years. That's approximately the same 
number who were subject to removal during the 8 years of the 
Bush administration.
    In accordance with the guidance issued by Secretary Johnson 
last year, the Department also continues to conduct its 
enforcement and removal activities by prioritizing high-level 
threats to National security, border security, and public 
safety. Chief among the highest priority threats are 
undocumented immigrants suspected or engaged in terrorism or 
espionage, convicted felons, and those convicted of criminal 
street gang activity.
    DHS is also seeking to strengthen its ability to collect 
and analyze immigration data in response to the recommendations 
issued by DHS Inspector General Roth, who is a guest of ours 
today, in May of 2015, regarding how best to enhance 
enforcement efficiency. Specifically, the inspector general's 
report notes that DHS agreed with the report's recommendation 
and plans to initiate a multipronged approach to gathering 
essential data on its use of prosecutorial discretion through 
its Office of Immigration Statistics.
    Secretary Johnson ordered the Department and its components 
to fully comply with a February 2015 injunction issued by the 
U.S. District Court for the Southern District of Texas to halt 
the expansion of the Deferred Action for Childhood Arrivals 
program and the creation of a Deferred Action for Parental 
Accountability Program. In particular, Secretary Johnson 
announced on the day after the decision that DHS would not 
accept requests for expanded childhood arrivals and will 
suspend its plan to accept requests for the new parental 
accountability program. He has also requested that the 
Inspector General Roth investigate the issuance of 
approximately 2,000 expanded work permits by U.S. citizens ship 
and immigration services that were already in process but not 
halted quickly enough in violation of the injunction. And I 
understand that the Department has been cooperating with the 
Inspector General's Office thus far.
    So, Mr. Chairman, I look forward to discussing the progress 
of this investigation and other issues pertaining to our 
improving immigration enforcement with our panelists.
    And I yield back the balance of my time.
    Mr. DeSantis. I thank the gentleman from Massachusetts.
    The chair now recognizes the chairman of the Health Care, 
Benefits, and Administrative Rules Subcommittee, Mr. Jordan, 
for his opening statement.
    Mr. Jordan. Thank you, Mr. Chairman. I'll be brief.
    Here are the facts. As the chairman indicated, 22 times the 
President said he couldn't do what he did. Federal judge agreed 
with the President, what he said 22 times, and said the 
executive amnesty order was in fact wrong. That judge has said 
attorneys for the government, when they came before the court, 
misrepresented the facts. And after the injunction, the 
Department of Homeland Security violated the judge's order when 
they sent 3-year work authorizations to approximately 2,000 
individuals. Those are the facts. That's what we need to get 
the answers to. That's why I'm pleased our panel is here, so 
they can answer our questions.
    And I think this is a hearing very necessary, Mr. Chairman. 
I appreciate the chance to be here. Appreciate you calling the 
hearing.
    With that, I yield back.
    Mr. DeSantis. Gentleman yields back.
    The chair now recognizes my friend from Pennsylvania, the 
ranking member on the Health Care, Benefits, and Administrative 
Rules Subcommittee, Mr. Cartwright, for his opening statement.
    Mr. Cartwright. Thank you, Mr. Chairman, and thank you to 
our witnesses for joining us today. I look forward to hearing 
how the administration is working to uphold this Nation's 
immigration laws. Following the issuance of the 
administration's executive actions on November 20, 2014, a 
lawsuit temporarily halted the rollout of new and expanded 
deferred action programs. The Department of Homeland Security 
trained its personnel and has begun implementing and working on 
new prosecutorial discretion policies, and U.S. Immigration and 
Customs Enforcement, ICE, prepared for the rollout of the new 
Priority Enforcement Program.
    In the midst of all that's happened, I think some of my 
colleagues have forgotten the reasons for the actions in the 
first place. Our immigration system was and continues to be in 
dire need of reform. DHS faces 11 million undocumented 
immigrants and does not have the resources available to remove 
them all. Many of these individuals have been in this country 
for upwards of a decade, living in the shadows, raising their 
children, many of whom were born in the United States.
    The Senate passed a bipartisan comprehensive reform bill in 
2013, but legislative efforts have ground to a halt in the 
House because of Republican opposition. In the face of 
legislative inaction, DHS issued a series of memoranda 
attempting to address the growing undocumented population. One 
memo provided guidance to more consistently focus resources on 
removing the most dangerous criminals and the most serious 
threats to public safety. Another memo announced efforts to 
improve the partnership between DHS and State and local law 
enforcement. Yet another memo modified deferred action policies 
in order to provide temporary stability to hardworking peaceful 
immigrants who are willing to pay their dues.
    These executive polices attempted to solve problems, but 
the executive branch can only go so far legally. And the 
immigration system will remain broken until Congress passes a 
legislative solution. Republicans in Congress have been happy 
to challenge and question and criticize the administration for 
its actions instead of offering solutions. Now, given the 
recent Texas Federal Court injunction, it is my belief that the 
USCIS Director Leon Rodriguez understands his responsibility to 
comply with the law and that he has worked quickly to halt the 
implementation of the new and expanded deferred action programs 
as soon as possible.
    I also appreciate that the USCIS has taken full 
responsibility for the release of work permits after the 
injunction was ordered, and I look forward to hearing today 
about changes at USCIS that will ensure that this kind of thing 
doesn't happen again.
    But while the courts hear the legal challenges to the 
administration's actions and while Republicans in Congress 
criticize those actions themselves, the problems in our 
Nation's immigration system persist.
    I urge that my colleague across the aisle turn their 
efforts toward lawmaking and away from bellyaching. Moving 
forward, I hope we can finally focus on comprehensive lasting 
legislative solutions. This is the work and attention our 
broken immigration system and the millions affected by it so 
desperately need.
    I thank you, and I yield back, Mr. Chairman.
    Mr. DeSantis. Gentleman yields back. Thank you.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    We will now recognize our witnesses. And I'm pleased to 
welcome Ms. Sarah Saldana, Director of U.S. Immigration and 
Customs Enforcement; Mr. Leon Rodriguez, Director of U.S. 
Citizenship and Immigration Service; and Mr. John Roth, 
inspector general at the U.S. Department of Homeland Security.
    Welcome all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify.
    If you please rise and raise your right hands.
    Do you solemnly swear the testimony you are about to give 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record.
    And, with that, Ms. Saldana, you're up for 5 minutes. Thank 
you.
    Ms. Saldana. Thank you, Chairman Jordan and DeSantis and 
ranking member----
    [Disturbance in hearing room.]
    Mr. DeSantis. Committee will come to order. Please have the 
police escort the protesters out. Committee will come to order.
    Committee will suspend.

    rotesters will leave the hearing room. We ask the people 
who are watching, watch, listen, learn, but if you disrupt a 
hearing, you will be removed.
    I now recognize Ms. Saldana for 5 minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF SARAH R. SALDANA

    Ms. Saldana. Thank you. I don't think I got to thank the 
Ranking Members Cartwright and Lynch and subcommittee members. 
I'm pleased to appear before you along with U.S. Citizenship 
and Immigration Services Director Leon Rodriguez. While 
Directors Rodriguez and I lead different agencies with 
certainly distinct missions, we are part of the same Department 
and are very mindful of the necessity to do all we can to 
ensure coordination between our components.
    In the 2 months since I first appeared before the full 
committee, I have continued to take steps to enhance ICE's 
ability to achieve one its primary goals, that of enforcing our 
Nation's immigration laws and keeping our country safe by 
ensuring we focus our resources on individuals who pose the 
greatest threat to our National security and to public safety.
    Secretary Johnson has made it clear to all of us that our 
borders are not open to illegal migration and that I should 
allocate enforcement resources accordingly, consistent with our 
laws and with our values. As such, ICE is endeavoring to use 
appropriate prosecutorial discretion and dedicating resources 
to the greatest degree possible toward the removal of 
individuals who are considered enforcement priorities, which 
includes criminals and recent border entrants.
    Guided by DHS' enforcement priorities, the approximately 
7,300 personnel of ICE Enforcement and Removal Operations, or 
ERO, identify and arrest and detain convicted criminals and 
other removable aliens. We, as appropriate, supervise them 
through alternatives to detention or remove them from the 
United States through our immigration courts.
    While there is still a lot of work to be done, I've seen 
progress in my 6 months leading this agency. First and 
foremost, our employees are dedicated to accomplishing this 
mission with integrity and with professionalism. As a result of 
their tireless effort focusing on the priorities I mentioned, 
they are making our communities safer.
    We are now removing a greater percentage of criminals than 
we have in the past. And I'm committed to continuing this 
trend. In fiscal year 2014, 85 percent, 85 percent, of 
individuals removed or returned from the interior were 
individuals previously convicted of a criminal offense, 
reflecting a significant increase in the rate of removal of 
individuals with convictions from 67 percent in fiscal year 
2011 compared to 38 percent in fiscal year 2008.
    The increasing number of convicted criminals removed from 
our country is the result of a change in ICE's strategic focus, 
which revised policies and your initiatives have helped us 
achieve. That's why I, along with our employees at ICE and the 
leadership of the Department, have been working hard to 
implement the new Priority Enforcement Program, PEP, where we 
engage State and local communities to enhance the agency's 
ability to remove dangerous individuals.
    Recently, both the counties of Los Angeles and Contra Costa 
in California agreed to continue cooperating with ICE and DHS 
in implementing PEP. We anticipate they will be the first of 
many. That's also why I've been working to bolster ICE's 
ability to obtain travel documents from recalcitrant countries, 
a problem I know this committee is familiar with. I'll continue 
to work closely with the Department of State to achieve better 
compliance from countries in accepting the return of their 
nationals.
    I should also mention my establishment of enhanced 
oversight and release procedures for ICE custody determinations 
involving detainees with criminal convictions on their records, 
to include developing a capability to provide appropriate 
criminal alien release information to State law enforcement 
authorities and relevant jurisdictions. I put this procedure in 
place to enhance public safety and greater public confidence in 
ICE's enforcement and administration of immigration laws. Part 
and parcel of this effort is a law enforcement notification 
system currently being used in Virginia, Louisiana, and my home 
State of Texas, in its early stages currently and which we 
expect to be fully implemented across the country sometime 
before the end of the year.
    With respect to family residential centers, last month I 
announced a series of actions to enhance oversight over these 
centers to increase access and transparency to ensure that they 
continue to provide a safe and humane environment for detained 
families. While we routinely review and evaluate our 
facilities, all of our facilities, we understand the unique and 
sensitive nature of dealing with women and children in these 
settings. Even as we do this, however, we also cannot have an 
immigration system that encourages criminals to take advantage 
of people to abuse women and children while they attempt to 
smuggle them into the United States. And both ERO and HSI are 
working together to find and dismantle and bring to justice 
these organizations.
    As we move forward, I believe that ICE will be successful 
in the deliberate implementation of our mission objectives. I 
look forward to working with this committee, and I echo the 
sentiments of the Congressman with respect to reform of the 
laws, which are encompassed in this book, along with the 
regulations. This is a very complex system that needs to be 
reformed.
    [Prepared statement of Ms. Saldana follows:]
    For complete submitted testimony, please see the following 
website:
    https://oversight.house.gov/hearing/a-review-of-the-
presidents-executive-actions-on-immigration/
    Mr. DeSantis. Thank you. Gentlewoman's time is expired.
    The chair now recognizes Mr. Rodriguez for 5 minutes.
    You're up.

                  STATEMENT OF LEON RODRIGUEZ

    Mr. Rodriguez. Good afternoon, chairman--chairmen, ranking 
members, and members of the committee. Thank you very much for 
inviting me to be here today.
    I have talked about my own personal story before. I am the 
son of Cuban refugees from south Florida. I have talked often 
about the sufferings that led them and my grandparents to make 
the choices to come here to the United States and the hopes and 
dreams that they brought with them when they came here. This 
has taught me as Director of USCIS that every file we see, 
whether it is a DACA request, naturalization request, a refugee 
filing, a worker visa filing, that all of these cases represent 
one family's hopes and dreams and, in many cases, that family's 
sufferings. I believe deeply in the work that we do as USCIS. 
And I believe in it because it requires us both from a 
perspective of immigration policy and operating the immigration 
system to answer fundamental questions about our country.
    Will we be a prosperous country, or will we not? Will we 
keep families together, or will we allow them to be fragmented 
and destroyed? Will we be guided by the rule of law, or will we 
not? Will we protect the National security, or will we not? 
Will we lead when there are issues, or will we just watch as 
those issues deepen, become worse, become problems and even 
crises?
    Unfortunately, for too long, our political system failed to 
answer these questions with respect to a number of aspects of 
our immigration system. Not simply the situation of those who 
are here in undocumented status, and the many members of their 
families who are here legally but also those aspects of our 
immigration system that bear critically on our economic 
prosperity and our civic stability. It is for this reason that 
the President issued his executive actions back in November of 
2014, focusing on promoting integration of immigrants, 
promoting actual accountability of those who are here in an 
undocumented status, a condition that did not exist before the 
President took that step, and promoting within the confines of 
what the law allows him, an immigration system that fully 
promotes our economic success as a country.
    The President was building on the success of the 2012 DACA 
program, and there are many success stories. Young people who 
have become teachers, nurses, doctors--in one case now, even a 
lawyer--and who really demonstrate the potential that they have 
to contribute to the United States. Our work was enjoined by 
the court in Texas. The one thing I'd like to underscore about 
that is that it's not over until it's over. We believe in the 
legality of our policies, and we believe that in the end we 
will be vindicated by the legal process.
    Nonetheless, when the court issues an injunction, I as the 
Director of USCIS, as an attorney, and as a former prosecutor, 
ordered the immediate cessation of all activities to implement 
the deferred action policies under the President's executive 
actions. One of those actions was to stop the issuance of 3-
year work authorizations that had actually been granted the 
week before the injunction was issued. Unfortunately, through a 
miscommunication, those work authorizations were issued anyway. 
I have taken full responsibility, both in this forum and before 
the court, and to say that I took it before the court is to say 
something significant. I am an attorney. I am a former 
prosecutor. And I have said very clearly to Judge Hanen: I am 
responsible. I am accountable for what my agency did.
    The question, now, though is as I take accountability, will 
we as a political system take full accountability for the 
challenges that we have in our immigration system. The 
President made it very clear at the time that he issued the 
executive orders, that they could be stopped immediately if 
instead we found a legislative solution to the ongoing now 
decades-long challenges presented by the undocumented, 
presented by the insufficiency of our immigration system to 
meet our economic needs. I stand here today ready to work with 
all of you to work toward those improvements.
    Thank you, and I look forward to your questions.
    [Prepared statement of Mr. Rodriguez follows:]
    For complete submitted testimony, please see the following 
website:
    https://oversight.house.gov/hearing/a-review-of-the-
presidents-executive-actions-on-immigration/
    Mr. DeSantis. Thank the gentleman.
    Chair now recognizes Inspector Roth for 5 minutes.

                     STATEMENT OF JOHN ROTH

    Mr. Roth. Good afternoon, Chairmen Jordan and DeSantis, 
chairman member--Ranking Members Cartwright and Lynch, and 
members of the subcommittee. Thank you for inviting me here to 
today to discuss DHS' collection of prosecutorial discretion 
data.
    DHS has instituted various policies over time that allow 
the use of prosecutorial discretion in making immigration 
enforcement decisions. However, the Department does not collect 
or use such data to help assess immigration policy, evaluate 
the effectiveness and results of enforcement actions, or be 
able to assess the reasonableness of the exercise of that 
discretion on the part of DHS personnel.
    Since DHS' formation in 2003, ICE has implemented various 
policies to focus its efforts on criminal and civil enforcement 
priorities. It has also used policies for processing aliens 
with special circumstances, such as crime victims and 
witnesses, nursing mothers and the elderly, as well as ensuring 
that enforcement actions are not focused on sensitive 
locations, such as schools and churches.
    At the time of our audit, ICE's removal actions were 
governed by a series of policy memoranda signed by then-ICE 
Director John Morton in March and June of 2011 and focused its 
enforcement resources on three things: One, aliens who pose a 
danger to national security or risk to public safety; two, 
aliens who recently violated the immigration controls at the 
border and ports of entry or knowingly abused the visa process; 
and, three, aliens who were fugitives or otherwise obstruct 
immigrations controls.
    Additionally, a year later, in 2012, the Department issued 
guidance, known as the Deferred Action for Childhood Arrivals, 
known as DACA, which allows the use of prosecutorial discretion 
to defer action or release some aliens who came to the United 
States as children and meet other criteria. Despite its 
reliance on discretion to prioritize enforcement resources, ICE 
often does not collect prosecutorial discretion data and does 
not always ensure that its statistics are accurate and 
complete. For example, ICE records its use of prosecutorial 
discretion broadly, without distinguishing the various types of 
exceptions to removal, such as DACA-related exceptions.
    Additionally, prosecutorial discretion statistics may be 
inaccurate because enforcement officers may not document every 
encounter with aliens it considers to be a low enforcement 
priority. ICE officials told us that field personnel often do 
not record their use of prosecutorial discretion because it is 
too time-consuming. As a result, data that supports decisions 
on the use of prosecutorial discretion may not be available.
    DHS should ensure it can support its decisions with solid 
data. A feedback mechanism for the use of prosecutorial 
discretion could help DHS identify gaps, set goals, determine 
budget requirements, and provide information to improve program 
performance. In terms of overall immigration enforcement 
policy, such a mechanism could help develop sound future 
programs and policies. In addition to assisting in the overall 
policymaking process, capturing the right information would 
allow the Department to ensure that the proper and evenhanded 
application of the policies exist.
    As it stands now, there's no mechanism by which to assess 
the reasonableness of an individual officer's exercise of 
discretion to compare prosecutorial discretion decisions for 
similarly situated aliens or to compare the use of 
prosecutorial discretion by various field offices. This data, 
if collected, could also be used to evaluate the performance of 
individual officers or field offices.
    Uneven or inconsistent policy enforcement can have a 
negative effect on DHS' immigration enforcement mission. Here 
because the Department does not collect data on, much less 
monitor the use of prosecutorial discretion, we are unable to 
determine whether the Department is using prosecutorial 
discretion consistently or fairly.
    The Department agreed with our recommendations in our audit 
to improve collection and analysis and reporting of data on the 
use of prosecutorial discretion. DHS is planning a multipronged 
approach for assessing and accounting for its immigration 
enforcement efforts. We believe such a strategy is particularly 
important given that over the last two fiscal years, ICE, CBP, 
and USCIS collectively received on average about $21 billion 
annually for immigration enforcement.
    Chairmen DeSantis and Jordan, this concludes my prepared 
statement. I'd be happy to answer any questions you or members 
of the committee may have.
    [Prepared statement of Mr. Roth follows:]
    For complete submitted testimony, please see the following 
website:
    https://oversight.house.gov/hearing/a-review-of-the-
presidents-executive-actions-on-immigration/
    Mr. DeSantis. Thank you, Mr. Roth.
    Chair now recognizes himself for 5 minutes.
    Ms. Saldana, you recently reported to the Senate that 121 
illegal aliens that had been released by ICE between fiscal 
year 2010 and 2014 had been arrested for homicide since they 
were released. How many total homicides have these 121 
individuals been charged with?
    Ms. Saldana. Beyond the specific information----
    Mr. DeSantis. Can you hit your microphone, please.
    Ms. Saldana. I'm sorry. Beyond the specific information we 
provided with respect to the homicide, I think we broke down 
the information, and I can't tell you whether there are other 
homicides involved.
    Mr. DeSantis. So you just know that those folks have been 
charged with a homicide, but it doesn't rule out that they 
could have been charged with multiple homicides. Is that 
correct?
    Ms. Saldana. I can't say sitting here today that that's not 
the case.
    Mr. DeSantis. And do you know at this point how many 
convictions have resulted from those charges?
    Ms. Saldana. No. I don't.
    Mr. DeSantis. Is that something that you're interested in 
finding out?
    Ms. Saldana. Certainly. I think we have, as the inspector 
general has pointed out, we're working on our systems to try to 
be more flexible and responsive. We get a lot of inquiries 
with--in all shapes and sizes, which we're trying to make our 
information system more flexible, and that's taken a little 
time. But, yes, absolutely, we're interested in that 
information, like I know you are, sir.
    Mr. DeSantis. Do you know if any of those individuals had 
been convicted of a homicide-related offense before they were 
released by DHS?
    Ms. Saldana. I do not have that information. I don't 
believe that's the case.
    Mr. DeSantis. Okay. But that's obviously something that's 
important to know. What, if any, changes does ICE plan on 
making in light of the fact that you do have 121 individuals 
who were in ICE custody, were in the country illegally, have 
been released, and now have been charged with committing 
homicides. And just the way our criminal system works, I mean, 
most people who get charged end up getting guilty. I mean, 
let's just--it's probably over 90 percent. Let's just say it's 
60 percent. That's a lot of people who have been killed. That's 
a lot of families who have lost loved ones, and they can look 
at ICE and say: Look. Had you just done your job better, maybe 
my family member would be here today. So what policy changes 
are you going to make to prevent that from happening in the 
future?
    Ms. Saldana. And I will say that is particularly 
disturbing, I know, to all the members of this committee and to 
myself as a prior U.S. Attorney in north Texas, and Dallas 
based. That is something that we're always trying to do is to 
find criminals and to convict them. As a result, when I first 
came here----
    Mr. DeSantis. Well, and you probably did that very well. I 
know people on the state level in Texas and other places do it 
very well. The problem, though, is, is if they're going and 
they're being convicted and then ICE knows that they're not 
here legally, and we know they're convicts, and yet they still 
get released into society. And, in 2013, I know you weren't ICE 
director then, 2013 DHS released 36,000 individuals who were in 
the country illegally had been convicted of crimes. They 
provided the crimes to us, and they included homicide. They 
included rape. They included drug trafficking. Some very, very 
serious offenses. 2014, you had 30,000 individuals, again, who 
were in the country illegally convicted of crimes and yet still 
released by DHS.
    And so the local and Federal law enforcement officers and 
the prosecutors, they play an important role, but if DHS is 
then going to release people who have been proven to be a 
danger to society into the public, well, then that leaves more 
Americans to be victimized by, in some cases, very violent 
crimes.
    Ms. Saldana. And that's why, Mr. Chairman, I established a 
procedure that I announced back in March for greater oversight 
over the release of any person who had a prior--serious prior 
conviction. In particular, I'm asking people to sign off a 
piece of paper the original person who makes the determination 
with respect to either custody or bond. I'm asking their 
supervisors to review it. I've actually put together a panel in 
headquarters which looks over all of these decisions to 
determine whether or not they were based on the facts and 
circumstances known to the individual and that they were right 
decisions. As I mentioned earlier, this----
    Mr. DeSantis. And if they're not right decisions, what 
happens? Because I mentioned the 36,000 in fiscal year 2013. 
These are folks that have been convicted in our courts of, in 
many cases, very serious offenses. They weren't in the country 
legally, they're released, and now, even at this point in 2015, 
of those 36,000, by DHS' own figures, 1,000 of those people 
have already been convicted of new crimes again in the future. 
And so, clearly, there is a breakdown there. So when that is 
not followed, what happens? Who is held accountable? Does 
anyone lose their job?
    Ms. Saldana. It could be, sir. We'll just have to see.
    Mr. DeSantis. Has anyone lost their job----
    Ms. Saldana. Not yet.
    Mr. DeSantis. --since you have been ICE director?
    Ms. Saldana. No. Not in----
    Mr. DeSantis. So the 1,000 new convictions that we have 
seen for people who had already been convicted, there's not 
been any accountability within ICE for that. To me, that's a 
major failure. Because if I were somebody whose family member 
was victimized by a crime, I would want to know: Well, wait a 
minute. You guys should have known. The President's policy is, 
you know, we're going to go after the criminals, zero 
tolerance. We're going to make it happen, and yet that hasn't 
happened. So what do you say to the families who've seen the--
who've been victimized?
    Ms. Saldana. If I may, sir, I would say that those are 
tragedies. And I wish that our deportation officers and others 
making these decisions were omniscient and could see into the 
future and into the heart and soul of these individuals, but we 
go by the facts that we know----
    Mr. DeSantis. A criminal conviction for, say, aggravated 
assault, that's not looking into the future, that's looking 
into the past. I mean, as a prosecutor, if you have people who 
run afoul with the law and get convicted of violent criminal 
activity, those are people that are much more likely to commit 
crimes in the future than somebody who's never committed a 
crime in their life. So it's not just saying that this is all 
just trying to look into the future and you need clairvoyance; 
you can judge whether somebody's a threat to society based on 
their past conduct.
    Ms. Saldana. If you--if you'll allow me to finish my 
answer, Mr. Chairman, I would really appreciate it because I 
think the American people have a right to know the full picture 
here.
    Every decision we make, there is not a single deportation 
officer or other agent within ERO who wants to let a dangerous 
criminal out in the streets to threaten the public. I can 
guarantee and assure you of that. They are law enforcement 
officers. And with respect to the ability--we have got to look 
at the record as it is. We don't look at one single factor. We 
do look at the age of--just like a court of law, the Federal 
courts in which I practiced. They look at many different 
factors to determine whether to release an individual, and we 
are bound by some of the numbers that you threw out by the 
Supreme Court in its decision with respect to not being able to 
detain people beyond 6 months, typically. And the immigration 
courts that set bond and release some of these folks as well. 
So that is the complete picture and that's what I can assure 
you of is I'm committed, and I have been doing this since I 
stepped into this position back in January to keep that number 
down and to try to avoid future tragedies like the ones you 
have described.
    Mr. DeSantis. Point taken. Now, you said that there are 
multiple factors, so you can't just look at one thing. So maybe 
someone has a blemish on their criminal record, but there's 
other factors. You mentioned age. Answer me this, because there 
have been people that have been convicted of sexual assault who 
have been released, and by ICE's own admission, it wasn't 
because they--the 6 months was up. Sometimes that happens, but 
there are other people who did not, where they were 
discretionary releases. So what other factors would outweigh a 
conviction for a sexual assault against a woman or a child, and 
why would we want that person in our society?
    Ms. Saldana. This Congress and in this elaborate system 
that we're talking about has entitled the individuals to bond 
and have said things like the age of the criminal conviction, 
the nature of the crime----
    Mr. DeSantis. No. I understand that. But how does that 
outweigh the seriousness of the offense when you're talking 
about people who've committed sexual assaults, crimes against 
children, crimes against women? That's what I don't understand. 
I understand if somebody got a speeding ticket or something, 
but some of those I think there's broad agreement in the 
American public that that is not something that we want to see 
where ICE is facilitating people to be back on the street.
    Now, I have I'm over my time. So I appreciate you answering 
the questions. I know some of my colleagues will have more, and 
I am going to now recognize Mr. Lynch for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    You know, the way we approach the question, the wider 
question of immigration is really based on what narrative that 
we use. This committee, this hearing is set up on a narrative 
that really looks at illegal immigrants who have committed 
heinous crimes, homicides. And so someone using that narrative 
will have a very negative view towards immigration policy 
because you're looking at that consequence.
    There's another narrative, though. I had an opportunity as 
part of this National Security Subcommittee to visit, with the 
former chairman Mr. Issa, we went to Kandahar, Afghanistan, and 
I was honored. I have to say I was honored to be asked to 
participate in an immigration--citizenship ceremony. So here I 
am at this Godforsaken forward-operating base when about 100 
young Marines, men and women, surprised at the number of young 
women, took the oath of citizenship for this country. Every one 
of them a noncitizen in American uniforms fighting for this 
country in a very difficult war zone from 19--and out of those, 
about 100 marines, a few soldiers as well--19 different 
countries, from Guatemala to Somalia to Ethiopia to Mexico. 
And, you know, I was standing there, and we had a chance to 
spend the afternoon with these young soldiers and marines, and 
I could not help but think about the quote that John F. Kennedy 
made famous. He said: Ask not what your country can do for you, 
but ask what you can do for your country.
    And I'm thinking, these young soldiers, these young 
marines, standing in the place of American citizens in a tough, 
tough war zone, chasing the Taliban up and down that province--
and they're not even citizens--trying to be--trying to be 
American citizens for all the right reasons, if you take that 
narrative and you see the good, the good, that is possible by 
adopting an immigration policy that actually values that desire 
to be part of this country for all the right reasons, you take 
a whole different--a much more hopeful view of immigration 
policy and what we could accomplish if we got it right.
    So, Ms. Saldana, or Director Saldana, I want to ask you 
about some of your comments earlier. You were talking about--
look, we all know that if we got sequestration or even the 
proposed budget is $500 million below sequestration, which 
really cuts into your ability to do your job, and I've seen 
numbers that say that 85 percent of ICE's removals from the 
United States in 2014 were convicted criminals. So it sounds 
like you're meeting your priorities.
    I'm just wondering what impact--what impact is this going 
to have in going after the, you know, your priority--you said 
it was National security. So that's going after terrorists and 
those involved in espionage, criminal activity----
    Ms. Saldana. Gangs. Those----
    Mr. Lynch. So how will this-- tell me a little bit about 
how this might affect your ability to do your job and to try to 
make sense of this somewhat dysfunctional immigration policy 
that we have right now.
    Ms. Saldana. Well, I'm glad you asked that question because 
we have had a number of things working against us and 
increasing our expenses. For example, obviously, the influx of 
families, women and children, require even greater services 
than others. Those beds are much more expensive than a regular 
adult bed that you would have. We have operations that we 
conduct because we cannot get people from the State system 
immediately with some jurisdictions not cooperating with us. We 
have operations we have to conduct where we pull people off of 
their regular duties and go out and try to find dangerous 
criminals. That not only exposes the officers to safety issues, 
but it also can be a very detrimental situation with respect to 
the family who is present at the time that the officers show 
up. So, to us, even the disruption that occurred back in March, 
before March, with respect to not having even any kind of 
guarantee with respect to our 2015 budget, it wreaked 
tremendous havoc, never mind the 20,000 employees who would not 
be receiving a paycheck if sequestration continues in this 
manner.
    Mr. Lynch. Right. Now, do you do any work with the victims 
on the victim side----
    Ms. Saldana. Absolutely.
    Mr. Lynch. --in these cases, and is that piece going to be 
affected as well?
    Ms. Saldana. Yes. And I'm glad you mentioned that, because 
we often forget, it's not just ERO, but its HSI, our Homeland 
Security Investigation side of the house, that is affected by 
these budget constrictions. We--and they help us with respect 
to these smuggling networks. As I mentioned in my opening 
statement, not only do we have to take care of the families 
once they get across, but we ought to do the best we can to 
dismantle those smuggling organizations that put them at peril 
and bring them over into this country. So, yes, sir, that's a 
more complete picture.
    Mr. Lynch. Very good. Thank you.
    Mr. Chairman, I yield back.
    Mr. DeSantis. The gentleman's time's expired.
    The chair now recognizes Mr. Jordan for 5 minutes.
    Mr. Jordan. Thank you.
    Director Rodriguez, President issues his executive order on 
November 20 of last year. Court case ensues. There's a hearing 
on the preliminary injunction January 15, 2015. Your counsel 
represents to the court: No applications for revised DACA would 
be accepted until the 18th of February. No action would be 
taken on any of these applications until March 4.
    Did you know at the time that your counsel was 
misrepresenting the facts?
    Mr. Rodriguez. No. And I'm not sure I would characterize it 
that way, Congressman. The fact was that beginning on November 
24, for individuals who were applying for either----
    Mr. Jordan. It's pretty clear--if I could just interrupt 
for a second, Mr. Rodriguez. It's pretty clear your counsel 
said, ``Just to be clear, Your Honor,'' and he reemphasized 
that point that no applications going to the 3-years deferrals 
would happen until at least February 18--or, excuse me, March 
4, and yet the case--isn't it true that you had had 100,000 of 
these applications--or not applications, but these actual 3-
year deferrals go out to 100,000 individuals?
    Mr. Rodriguez. 100,000 individuals under the original 2012 
DACA program who were being granted 3-year work authorizations 
rather than two.
    Mr. Jordan. Exactly. Exactly.
    Mr. Rodriguez. I won't characterize my counsel's comments.
    Mr. Jordan. Well, I mean, the judges said it. They were 
misrepresented to the judge. I'm saying did you know at the 
time that counsel for your side of the case misrepresented that 
fact to the judge?
    Mr. Rodriguez. I was not aware of the statement made by my 
counsel at that time.
    Mr. Jordan. When did you learn that there had been a 
misrepresentation to the court?
    Mr. Rodriguez. I learned that the court believed that there 
had been a misrepresentation in March when we first informed 
the court in an attempt to be 100 percent clear with the court 
that we had in fact granted roughly 108,000 3-year work 
authorizations beginning on November 24, long before the 
lawsuit was even filed.
    And, by the way, Congressman, openly.
    Mr. Jordan. Yeah. So you informed the court when?
    Mr. Rodriguez. We advised the court, I believe, at the 
beginning of March. It would have been something like March 3 
or March 4, when of our own initiative in order to be 100 
percent frank and clear with the court our counsel took the 
initiative to advise the court that we had----
    Mr. Jordan. Okay. You advised the court on March 3 or 4, 
early March. When did you first learn that there may be a 
problem?
    Mr. Rodriguez. We in--immediately after the injunction, we 
discussed the existence of these 108,000 3-year authorizations, 
again, individuals under the original 2012 program. This would 
have been sometime in the few days after the injunction was 
issued----
    Mr. Jordan. I'm looking for a date because you have got to 
remember the context, though, Director Rodriguez. We were 
having an important debate here in Congress relative to the 
Department of Homeland Security funding bill. The judge issues 
his injunction on February 16. You're telling us: A few weeks 
later, we went on our own, just out of the kindness of our 
heart, even though the judge thinks you misrepresented the case 
to him, out the of kindness of your heart, you told the judge 
sometime early March, but that DHS bill came due on February 
27. You said you knew about this shortly after the injunction. 
So sometime between February 16 and February 27, you learned of 
it. I'm wondering why you didn't tell us right away or tell the 
judge right away, which we would have known about and the 
American people would have known about.
    Mr. Rodriguez. We told the court within a couple of weeks 
of the injunction in an effort to be candid with the tribunal, 
which our counsel felt that it was their obligation, and which 
certainly had I been counsel, I would have had the same 
attitude as well. We wanted to make sure that the court 
understood that.
    Mr. Jordan. All I'm saying is it would have been nice in 
the heat of that debate, frankly, debate that the whole country 
was having, if we'd have had that information before the 
deadline of the DHS bill, which is February 27. You're telling 
me you knew there could be a problem, and you decided to tell 
the judge, but you waited until after the 27th.
    Mr. Rodriguez. Congressman, I'm not sure I agree with the 
characterization. The fact is we told--once we understood that 
this was an issue that the court may not have understood, we 
made the decision to let the court know. It was our intention 
at all times to be candid with the court, and what I underscore 
is that we were--we had this up on our Web site. This was 
included in our filings with the court that the directive was 
to issue 3-year work authorizations immediately. That was part 
of our initial----
    Mr. Jordan. Well, I tell you what would have been a lot 
nicer. What would have been a lot nicer is if the counsel for 
your side, when they were in front of the judge, would have 
told him what you told the court, would have told him, ``Hey, 
there's already been 100,000 go out,'' instead of 
misrepresenting it to the court and saying, ``That's not going 
to happen until sometime in February, sometime in March.'' That 
would have been better. But, the fact, that you learned before 
the 27th day and waited to tell the judge and, therefore, 
Congress and the American people until after the DHS bill, I 
think's relevant.
    Last question if I could, Mr. Chairman.
    Mr. Roth, have you looked into this issue?
    Mr. Roth. We are in the process of doing the field work on 
this, yes.
    Mr. Jordan. And what does that mean, Mr. Roth? Is that 
going to be a report sometime soon, or when are we going to 
have something that--when's your investigation or audit going 
to be done?
    Mr. Roth. Sure. We're conducting interviews as we speak, 
reviewing emails, doing the kinds of things that we would 
typically do. My projected timeline is hopefully weeks, not 
months, but I can't give you a firmer date than that.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Russell. [Presiding.] The chair now recognizes the 
gentleman from Pennsylvania, Mr. Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Well, Mr. Rodriguez, I want to spend a little more time 
exploring USCIS' rollout of DAPA and expanded DACA. DAPA 
meaning Deferred Action for Parents of Americans. In light of 
the Texas Federal Court decision, Director Rodriguez, I 
understand you have taken great pains to comply with the Texas 
Federal Court's injunction. Is that correct?
    Mr. Rodriguez. That is correct, Congressman. Immediately, 
literally, this--the court's injunction became known to us 
around 11:30 p.m. On Presidents' Day. By 1 o'clock in the 
morning we had issued a directive to cease all implementation 
of either the expanded DACA policy or the DAPA policy, 
including to halt any issuance of 3-year work authorizations.
    Mr. Cartwright. Okay. So you immediately swung into action 
to enforce this injunction. Right?
    Mr. Rodriguez. That is correct, Congressman, including 
rolling back materials on our Web site, forms, instructions, in 
order to absolutely comply in every respect with the court's 
injunction.
    Mr. Cartwright. Okay. Now, I understand that DHS has 
admitted that some work authorizations were provided after the 
court's injunction was ordered, and your written testimony 
makes it clear, ``USCIS also took immediate steps intended to 
ensure we ceased issuing 3-year work permits.'' Director 
Rodriguez, can you describe what those immediate steps were and 
why they didn't work?
    Mr. Rodriguez. The concrete immediate step that was taken 
was that all of those work authorizations that we're talking 
about were in a--what is essentially a giant print queue. What 
was supposed to--and so we halted them, and what was supposed 
to have occurred is that they should have been essentially 
reversed and sent back to the immigration services officers who 
were reviewing the case. Instead, there was a miscommunication 
which led those print orders to go to the contractor that 
actually prints the 3-year work--3- or 2-year work 
authorizations, as the case might have been, and they were 
printed.
    We discovered this in the process correcting other errors 
that we had made and immediately notified on our own initiative 
both the States and the court. We have advised all of the 
affected requesters of the fact that they are getting 2- rather 
than 3-year work authorizations. We have required them to 
return their 3-year work authorizations. In fact, close to half 
of them already have, and are----
    Mr. Cartwright. Let me stop you there.
    So what you're telling us is that it wasn't that you got 
caught or somebody blew the whistle on you, you picked up the 
error on your own. Is that correct?
    Mr. Rodriguez. Well, let me characterize it. We caught 
ourselves.
    Mr. Cartwright. Caught yourselves and you reported 
yourselves----
    Mr. Rodriguez. That is correct, Congressman.
    Mr. Cartwright. --is that right?
    Mr. Rodriguez. Yes.
    Mr. Cartwright. And that was all out of an effort to be 
candid with the tribunal in Texas.
    Mr. Rodriguez. That is correct, and also, frankly, to be 
fair with our customers and let them know exactly where they 
stood with respect to their cases.
    Mr. Cartwright. And then you went to the people that got 
the 3-year work authorizations and started to explain to them 
that they didn't--they weren't getting 3 years, they were 
getting the 2 years, as they supposed to.
    Mr. Rodriguez. Each and every one of them, Congressman, was 
sent a letter advising them of the error, directing them to 
return their 3-year authorization and advising them that they 
would be given a 2-year authorization.
    As I indicated, we have already recaptured a number of 
those 3-year work authorizations and are issuing 2-year 
authorizations.
    Mr. Cartwright. All right. Well, Director Rodriguez, this 
here is Washington, D.C., and we don't blow anything out of 
proportion here.
    Mr. Rodriguez. Oh, no, sir. Never. Never.
    Mr. Cartwright. But, nevertheless, some reports have 
indicated that the USCIS intentionally failed to comply with 
the Texas Federal Court's injection. Director Rodriguez, I just 
want to clear this up once and for all. How would you react to 
those criticisms?
    Mr. Rodriguez. Congressman, I'm a public servant. I am an 
officer of the court as an attorney. I think you have already 
observed, we actually owned up to the error that we had made. 
That makes it fairly clear that the intent all along had been 
to comply with the court's order.
    Mr. Cartwright. All right. Now, as it currently stands, are 
you moving forward with plans to process DAPA applications at 
that facility?
    Mr. Rodriguez. In absolutely no respect, Congressman. As I 
said, we immediately, literally within minutes, halted all 
activities that amounted to the implementation of either the 
expanded DACA or the DAPA program immediately upon the court's 
injunction. No policies have been developed. No people have 
been hired. Nothing has been done to implement those programs.
    Mr. Cartwright. Well, I thank you for your work, and I 
yield back.
    Mr. Rodriguez. Thank you, Congressman.
    Mr. Russell. The gentleman yields back.
    The chair will now recognize himself for 5 minutes. I do 
appreciate your service. And when we have had you here in 
hearings before, it is obvious that you serve administration to 
administration in attempts to make our system both lawful and 
to secure our country.
    However, that doesn't necessarily negate the fact that we 
still have problems. As Mr. Lynch pointed out earlier about 
those that were enlisted on fields of battle to gain their 
citizenship, I just might point out, having commanded some 
soldiers in foreign fields in that category, they were legally 
here in this country and had been properly vetted with no 
criminal histories.
    And that's the essence of what we're getting at here today 
is within the constructs of enforcing the law and doing these 
things that we must do, we can't just let policies, political, 
regardless of administration, take away our immigration process 
and result in the crimes that we are discussing, penetration of 
our borders that weaken our national security and could open us 
up even to terrorist attack.
    Mr. Roth, is it correct that the Department does not 
collect and analyze data on the use of prosecutorial direction?
    Mr. Roth. That is correct.
    Mr. Russell. Can you explain why this is significant?
    Mr. Roth. Yes. It's best to do it by example. For example, 
if ERO officers go into, say, a house to look for a specific 
violent felon, there might be three or four other individuals 
that would be susceptible to deportation. By the fact that 
those officers exercise prosecutorial discretion on those 
individuals means it's really invisible to the policymakers as 
to, one, who's exercising prosecutorial discretion and why? Is 
it uniform across the country? Should it be uniform across the 
country? Are there categories of individuals for, perhaps, we 
should not exercise prosecutorial discretion, in other words, 
try to refine the policy as we go? It's really a fundamental 
sort of precept of good government that you ought to be able to 
record and measure the activities that you do.
    Mr. Russell. Well, did DHS explain what data it reviewed in 
setting those priorities for apprehension, detention, removal 
of undocumented immigrants, illegal aliens?
    Mr. Roth. They did not as far as prosecutorial discretion. 
Obviously, they capture a number of different data points of 
information with regard to the number of apprehensions, the 
number of deportations, those kinds of things, estimates of the 
number of individuals illegally in the United States. But they 
do not capture what we think is an important thing, which is 
the exercise of discretion.
    Mr. Russell. I think on this theme, part of the concern is 
that these data gaps weaken our immigration enforcement 
efforts. Director Saldana, I have read reports where ICE agents 
have complained they have not been able to access alien 
criminal history. What is being done to take corrective action 
on criminal history record access to make sure that they can 
see the problem before it becomes a problem?
    Ms. Saldana. And, actually, I've actually sat down and run 
through our data points and all the information that an officer 
may have available to them at the time of apprehension, 
booking, whatever. And there is criminal information that comes 
through the NCIC and the FBI database with respect to prior 
convictions.
    I will say, the inspector general, that we agreed and 
concurred that we could be more systematic about our collection 
of data. But we do have a lot of information on the exercise of 
prosecutorial discretion. The issue, I understood, was it's not 
systematic. And that's what we're working towards. In other 
words, our lawyers, for example, because prosecutorial 
discretion can be exercised at any point of an immigrant's 
processing or going through the process, keep a record of when 
they exercise prosecutorial discretion.
    With respect to detention and bond decisions, that exercise 
of prosecutorial discretion is recorded. The issue is and the 
reason we concurred with the ultimate finding was we are 
currently working--and have been actually for several months--
on systematically recording that information and consistently. 
You can imagine a law enforcement officer out there in the 
field trying to do his job, knocking on a door at 6 in the 
morning and, yes, they may not stop to----
    Mr. Russell. I know you have had some efforts in the 
Intensive Supervision Program, and that's laudable. But the 
problem is what is being done to ensure that the Intensive 
Supervision Program is maintained until the immigration status 
of the individual is determined? Right now, there have been 
identified gaps where that supervision is neglected before 
their immigration status is done. And why is that? And what 
will you do to correct that?
    Ms. Saldana. Well, actually, that's what I'm saying. I 
think we have, and I think it was noted in the report, we have, 
the Department itself, not the agency, has been working to make 
this systematic actually across all the agencies, this 
information database, and have committed to working that. I'm 
not even sure right now I can remember where the report noted, 
the hope is that we can get that completed some time this year. 
But that is a huge effort that is being undertaken by our 
policy people and our technical people. And I think it's very 
well underway. It just takes time.
    Mr. Russell. Well, I appreciate those answers. 
Unfortunately, as time moves by, we see some drastic 
consequences. I am out of time.
    And I will now recognize the gentleman from California, Mr. 
Lieu.
    Mr. Lieu. Thank you, Mr. Chair. I would like to spend some 
time discussing an issue that is very important to me and to 
many Members of Congress and that is the continued detention of 
women, children, and infants in prison-like conditions. As you 
know, in 2009, the Department of Homeland Security shut down 
the Texas, Hutto, a jail-like family facility, because it was 
inhumane, because of reports of abuse, and harsh conditions.
    So I was surprised in your testimony that you said your 
agency is opening up additional facilities. And that's 
particularly surprising to me because, as you know, the 
American Immigration Lawyers Association has stated that 
virtually all of these folks can qualify for asylum because 
they are fleeing terrifying conditions of violence, abuse, and 
crime, and they have a fear of removal.
    You also know that last November, Homeland Security 
Secretary Johnson wrote in a memo, and ``Field office directors 
should not expend detention resources on aliens who are 
pregnant or nursing, who demonstrate that they are primary 
caretakers of children or an infirm person or whose detention 
is otherwise not in the public interest.''
    So, in light of that guidance, I'm asking, why does ICE 
continue to expend precious resources to detain thousands of 
families en masse, including children and infants, in prison-
like conditions?
    Ms. Saldana. Congressman, I want to be sure that I wasn't--
that I didn't misstate something. We do not have more new 
facilities that are being opened. We did, we do have Dilley 
with additional space that was opened. It's the same 
residential center. We have three across the country: One in 
Dilley; one in Karnes; and one in Berks, Pennsylvania.
    But with respect to your question, we, you know, up until 
actually the surge last summer and the spring, we had one 
facility essentially in Berks, Pennsylvania, with 100 beds. We 
had to get going quickly to ensure that we had someplace to put 
these families and the children in sanitary, good, humane 
facilities. I've been to both Karnes and to Dilley. I've toured 
the entire facilities. This is detention. It's not prison. I 
think, in fact, sir, that people have repeated the idea that 
there are, there is barbed wire at our family residential 
centers and that the guards are armed. One only has to step 
into the facility to see that those claims are false.
    Mr. Lieu. Thank you. I think 135 Members of Congress would 
disagree with you. On May 27 of this year, I joined them and 
signed a letter that said to Secretary Johnson, we are troubled 
by the Department of Homeland Security's continued detention of 
mothers and children in secure, jail-like facilities. And it 
describes some of what happens. We are disturbed by the fact 
that many mothers and children remain in family detention, 
despite serious medical needs. In the past year. We have 
learned of the detention of children with intellectual 
disabilities, a child with brain cancer, a mother with a heart 
disorder, and a 12-year-old child who has not eaten solid food 
for 2 months. We also learned of a 3-year-old child who was 
throwing up for 3 days and was apparently offered water as a 
form of medical treatment. It was only after the child began 
throwing up blood on the fourth day that the facility finally 
transferred her to a hospital. This is simply unacceptable. We 
cannot continue to hear reports of serious harm to children in 
custody and do nothing about it.
    So, Mr. Chair, I would like to enter this letter into the 
record.
    Mr. Russell. Without objection.
    Mr. Lieu. I would also like to enter a letter into the 
record dated June 1, 2015, from 33 Members of the Senate that 
says similar things. And then I would like to quote from this 
report, one of many, called ``Locking Up Family Values Again,'' 
a report on the practice of family detention by the Lutheran 
Immigration Refugee Service and the Women's Refugee Commission.
    Mr. Lieu. It opens up with a quote from the advocacy 
director of Human Rights Watch: Karnes was quite the visit for 
me. There's nothing like walking into a prison, and the first 
thing you hear is a crying baby, two things that should never 
go together, never ever.
    So I note in your testimony that you call these facilities 
family residential centers. It is so positive sounding. It's 
like a place you might see at Disney World. These are actually 
jail-like facilities. They should be called family prison 
facilities or family detention facilities or family jail 
facilities but not family residential centers. And every time 
you use that term, you're misleading the American public. So 
I'm going to ask you, will you stop using that term and call it 
what it is?
    Ms. Saldana. No, sir. Have you visited----
    Mr. Lieu. Just note, now that you are on notice, every time 
you use that term, I believe you will now be intentionally 
misleading the American public.
    And I yield back.
    Ms. Saldana. I'm sorry you feel that way, Congressman. I 
would love to take you through to one of our centers.
    Mr. Lieu. Me and 135 Members of Congress feel that way and 
33 Members of the Senate still feel that way.
    Mr. Russell. The gentleman has yielded back.
    And the chair will now recognize the vice chairman, Mr. 
Mulvaney from South Carolina, for 5 minutes.
    Mr. Mulvaney. Thanks very much. Reset the clock please.
    Ms. Saldana, who do you report to?
    Ms. Saldana. The Secretary of the Department of Homeland 
Security, Jeh Johnson.
    Mr. Mulvaney. And then he reports to the President?
    Ms. Saldana. Yes, sir.
    Mr. Mulvaney. Great. Could we run the video please?
    You have a chance to follow along on the video screen for 
the next 2 minutes or so.
    Let me follow up on a couple different things then. You 
said before that there were communities and local governments 
that were denying you access. Tell me about that.
    Ms. Saldana. This is one of the challenges I mentioned in 
my opening statement, sir. And I enlist the help of anybody 
that I can get help from on this issue. Because our biggest 
priority is criminals, convicted felons in particular, we need 
to work with State and local jurisdictions who are apprehending 
undocumented workers for offenses against State and local law. 
They have them in their custody. We can now communicate with 
the State and local jurisdiction and get some notice in advance 
through our detainer request to let us know that they're about 
to release them because they've served their State custody 
sentence and that we can take possession of them because of 
their violation of the law, and now we have a convicted 
criminal here.
    Mr. Mulvaney. But they're denying you the ability to do 
that?
    Ms. Saldana. Some jurisdictions are.
    Mr. Mulvaney. Why?
    Ms. Saldana. I can't speak for them. I will tell you it is, 
some of them have policies and laws that are----
    Mr. Mulvaney. Do you believe that you have--I'm sorry to 
cut you off--do you believe you have the legal right to force 
them to comply with your request?
    Ms. Saldana. We do not have, I cannot say that the detainer 
notices are mandatory. They are definitely discretionary.
    Mr. Mulvaney. Would it surprise you if the administration 
had taken a different position on that in the recent past?
    Ms. Saldana. Well, we have argued that, and there's pending 
litigation everywhere on this topic. I think you may be 
familiar with the Oregon case. But we are trying to work----
    Mr. Mulvaney. Would it help you if we clarified the law to 
make it clear that it was mandatory that those local 
communities cooperate with you?
    Ms. Saldana. Thank you, amen, yes.
    [video shown.]
    Mr. Mulvaney. Thank you. That was Thursday, March 19. 
Before the papers got printed the next morning, you had 
retracted that statement. And you went on to say that any 
effort at Federal legislation now to mandate State and local 
law enforcement's compliance with ICE detainers will, in our 
view, be highly counterproductive. So my question is, after you 
gave that testimony, did you talk to Jeh Johnson or anyone in 
his office?
    Ms. Saldana. Yes, I have.
    Mr. Mulvaney. Okay. I'm sorry, let me be more clear. 
Between the time that you gave that testimony and the time you 
retracted that statement later that afternoon, did you talk to 
anybody at Jeh Johnson's office?
    Ms. Saldana. Yes.
    Mr. Mulvaney. What did they tell you?
    Ms. Saldana. What did they tell me? They asked me what I 
meant by that. And that's what my statement was. It was not a 
retraction, sir.
    Mr. Mulvaney. Oh, no, it was absolutely a retraction.
    Ms. Saldana. It was a clarification of the fact that, I'm 
used to the law enforcement----
    Mr. Mulvaney. I can play it back again, Ms. Saldana, if you 
want to. But everybody here knows it was a retraction. That's 
fine. There's nothing wrong with retracting statements. People 
do it all the time. But I asked you if you would like some help 
in getting the localities to cooperate with you, you said, 
``Thank you, Amen, yes.'' And we all said: Great, we think we 
can do that.
    And that night, you said any effort to do that would be 
counterproductive. And I'm asking you, did Jeh Johnson ask you 
to change your statement?
    Ms. Saldana. He did not.
    Mr. Mulvaney. Did anybody else ask you to change your 
statement?
    Ms. Saldana. Change the--no.
    Mr. Mulvaney. Did Jeh Johnson ask you to clarify your 
statement?
    Ms. Saldana. We discussed a clarification to make sure 
people understood that we need to work with State and local 
governments to ensure public safety in our communities.
    Mr. Mulvaney. So when I asked you if we could help you by 
requiring State and local governments to cooperate with you and 
you said, ``Thank you, Amen, yes,'' that meant, ``Thank you, 
Amen, no,'' is that what you're telling me now?
    Ms. Saldana. No.
    Mr. Mulvaney. Do you still want us to help you force the 
localities to cooperate with you on turning over criminals to 
your agency?
    Ms. Saldana. Sir, the forcing part is the issue. The 
forcing is not going to bring these people to the table. It's 
the efforts of all of us to make clear that this new program--
--
    Mr. Mulvaney. Would you like us to pass a law that would 
require local governments to turn dangerous illegal immigrants 
directly over to ICE?
    Ms. Saldana. No.
    Mr. Mulvaney. Why not?
    Ms. Saldana. Because we're in the middle of--not only 
myself and our employees at ICE----
    Mr. Mulvaney. You have given testimony that says----
    Ms. Saldana. May I finish, sir?
    Mr. Mulvaney. No. You may not. You have given testimony 
that says that one of the reasons you're concerned about the 
lack of cooperation is the safety of your agents. If we were to 
pass a law that would require towns and cities to turn 
dangerous criminal illegals directly over to your agents, would 
that make your agents safer?
    Ms. Saldana. We're working right now with those State and 
local jurisdictions in order----
    Mr. Mulvaney. Great answer to a question I did not ask. If 
Congress were to pass a law to do that, would your people be 
safer?
    Ms. Saldana. If you passed a law requiring them?
    Mr. Mulvaney. Yes.
    Ms. Saldana. I don't know that that can happen, sir, 
because we're in the middle of discussions with State and 
local----
    Mr. Mulvaney. I didn't ask you that. If we did it, would it 
make your--we all know the answer, and the answer is yes. I 
will get a chance to ask you the last question, the question is 
this, apparently either you or Jeh Johnson wants to put the 
politics ahead of the safety of your people. And I find that 
absolute unacceptable.
    Thank you, Mr. Chairman.
    Mr. Russell. The chair now recognizes the gentlelady from 
Illinois, Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair. Ms. Saldana, would you say 
what you wanted to say?
    Ms. Saldana. Yes. And that is my interest is in public 
safety and the safety of our officers. And if we are allowed a 
period of time to work with State and local jurisdictions in 
order to accomplish what I hope this committee wants to 
accomplish, and that is removing serious criminal convicted 
aliens from the United States, then that's what we're working 
towards. And that's how we got Los Angeles to say they would 
cooperate with us and Contra Costa, as well, in California. And 
we're working with several other jurisdictions. Always best, 
always best to try to get people to come to the table and 
discuss matters than to force things down their throats.
    Ms. Kelly. Thank you.
    Mr. Roth, I have reviewed your report from last month on 
the Department's need to strengthen data collection for its 
enforcement efforts. I think we all agree that, ideally, DHS 
would always be collecting more, not less, data. I would like 
to explore how this can best be done when resources may already 
be stretched thin. Last November, the Department's memo on 
exercising prosecutorial discretion stated, ``It is generally 
preferable to exercise such discretion as early in the case or 
proceeding as possible in order to preserve government 
resources.''
    Director, do you agree with that?
    Ms. Saldana. Yes.
    Ms. Kelly. And can you explain specifically how the use of 
prosecutorial discretion helps preserve ICE's resources?
    Ms. Saldana. As I testified earlier, I am, up until 
December 16 or 22, I was the United States attorney for North 
Texas, responsible for 100 counties, working with 100 different 
jurisdictions locally, as well as local police departments. I 
had the responsibility for over 3,000, the enforcement of over 
3,000 Federal statutes as a United States attorney. There's no 
way with 100 lawyers that I could bring to bear enforcement of 
all those laws.
    So part of my job, and it's a difficult part, is deciding 
which cases will have the greatest impact on community safety 
because I can't take every one of them. That is the very reason 
why these executive actions the Secretary announced on November 
20 are essential because we have a multibillion dollar budget, 
almost $6 billion, but there are 11.5 million people in the 
country unlawfully. We have over 2 million in process, at one 
stage or another of immigration proceedings. There is no way, I 
would think, that this committee would support funding the 
removal of each one of those because it would cost billions and 
billions of dollars. So prosecutorial discretion is just 
essential.
    Ms. Kelly. And how frequently would you say a typical ICE 
agent exercises this discretion on the job?
    Ms. Saldana. Every day it's a part of their job. And they 
come across different situations at all times.
    Ms. Kelly. Thank you.
    Mr. Roth, in your written testimony, you said: Given the 
shear number of removable aliens and the finite resources 
available to remove them, DHS has decided it must focus on 
those who pose the greatest risk.
    As a former prosecutor, you used prosecutorial discretion 
many times, isn't that right?
    Mr. Roth. That's correct.
    Ms. Kelly. Would you agree that this discretion involves 
making judgment calls?
    Mr. Roth. Absolutely.
    Ms. Kelly. And, Mr. Roth, in writing the May 4 report, did 
your office conduct a cost-benefit analysis as to how more 
discretion data would improve enforcement outcomes, and why or 
why not?
    Mr. Roth. We were not able to simply because we don't know 
how often prosecutorial discretion is used. I think, as 
Director Saldana noted, we know how much is used later on in 
the process, when ICE lawyers, for example, take people out of 
the system. The thing that we don't know--and we think we 
should know, and the Department agrees that they should know--
is how often that discretion is exercised at the very point of 
encounter, which, as you know, would be the most cost-effective 
way to do it. But until we actually understand what we're 
talking about, it's impossible to do a cost-benefit.
    Ms. Kelly. So DHS responded to a draft of the inspector 
general's report by stating this data project will, ``provide a 
framework for measuring and evaluating the Department's 
enforcement actions from a range of perspectives.''
    Is it fair to say that sometimes the use of this discretion 
can be difficult to quantify?
    Mr. Roth. The number of times you use the discretion should 
be able to be quantified. Now, the reasons that you use it or 
the judgment that is used is, obviously, something that will 
vary depending on sort of what situation the officer has. But 
the raw numbers themselves, and if I could just use an example, 
we wrote an audit of the workforce enforcement that ICE does. 
And there they do collect statistics. And one of the things 
that jumped out at us in that audit was the fact that, for 
example, New Orleans 5 percent of the time imposed fines, yet 
Chicago did it 35 percent of the time. That raises the obvious 
question, how is Chicago different than New Orleans? It might 
be perfectly appropriate. But it certainly raises questions 
that you want to ask. So until you collect that data, though, 
you're not even going to be able to understand which questions 
you should ask.
    Ms. Kelly. I'm out of time. Thank you so much.
    Mr. Russell. The chair now recognizes the gentleman from 
Georgia, Mr. Hice, 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Ms. Saldana, do you have any idea how many convicted 
criminals have been arrested by ICE this year?
    Ms. Saldana. I believe that number is, let's say for 2014, 
it's 177,960. About 56 percent of those that were removed from 
the country. Are you asking for 2015 thus far, sir?
    Mr. Hice. Yes, ma'am.
    Ms. Saldana. I don't have that readily available but I'm 
happy to provide it.
    Mr. Hice. I would appreciate that. Would you have any idea 
how many have been released this year?
    Ms. Saldana. This year we have I think somewhere in the 
neighborhood of--actually, I don't have that number, sir.
    Mr. Hice. I'm assuming, then, you don't have any 
projections this year from previous years?
    Ms. Saldana. For?
    Mr. Hice. For how many are going to be arrested, how many 
are going to be released.
    Ms. Saldana. No. Projections?
    Mr. Hice. Yes.
    Ms. Saldana. No, we don't.
    Mr. Hice. Okay. Well, based on the last couple of years, 
there's been over 50,00 released. So it would be my assumption, 
then, we will continue down that trend. Last time that we had, 
that you appeared here, I had spoken to the sheriff of Gwinnett 
County, Georgia, which is one of the top five counties in the 
country dealing with the problem of illegals being released in 
their county. I was told by the sheriff before coming in here 
that his department has had no communication whatsoever with 
Homeland Security or ICE before criminals have been released 
back into his county. We spoke about that, and you assured me 
that you would start informing local law enforcement agents 
when criminal aliens are released back into their communities. 
Is that system--and, in fairness, you said you didn't know when 
that would occur. My question is, is that system in place now?
    Ms. Saldana. Well, I think what I said was: It is not 
systematic. We have relationships all over the country where 
people pick up the phone and call each other.
    What I want is a systematic process. That's what I'm always 
interested in, in establishing systems and procedures that will 
assure that. That's what that Law Enforcement Notification 
System is about that I mentioned in my opening statement, LENS, 
which we have tested already in Texas, Louisiana, and one other 
State, Virginia, I think, those three States. And we plan to 
have all the States connected to a systematic notification 
system by the end of the year.
    Mr. Hice. Well, your comment to me was that your 
Department, your agency would be informing local law 
enforcement agents and departments when you release criminals 
back into their communities. And that is not in place still?
    Ms. Saldana. That has begun, sir, in three States, Texas 
included, where we have a substantial amount of activity. It 
is----
    Mr. Hice. When is it going to be completed, I want to know 
next time I call one of my sheriffs, that they will be able to 
say to me that you contacted them, your Department contacted 
them when thieves, murderers, rapists, whatever, have been 
released back into their communities.
    Ms. Saldana. As I said earlier, by year end, we should have 
the entire country covered. And your department will get a 
phone call this afternoon.
    Mr. Hice. Okay. So you are saying to this committee that by 
the end of the year, every local law enforcement agent 
throughout the country will be notified before an illegal is 
released back into their community?
    Ms. Saldana. The way I described it, sir, it is a 
notification system that goes through the State. You know, we 
can't, I don't know, we have 254 counties in Texas, which is a 
large number. What we ask them to do is to connect up with the 
State notification system. We give the information to the 
State. And the State has already in place----
    Mr. Hice. So local law enforcement will not be notified, 
the State will. So it will be left to the State to communicate 
it abroad?
    Ms. Saldana. Yes. And we're discussing it with the 
Governors of those States. And people who implement the system, 
they're more than happy to do this.
    Mr. Hice. Does ICE or any other agency in our government 
monitor the activities of criminals following their release?
    Ms. Saldana. Many of them are released with conditions, 
including supervision, reporting in, ankle bracelets, other 
conditions that are imposed in making the decision to release 
somebody under those conditions.
    Mr. Hice. This is an issue that I think people are sick and 
tired, Americans cannot fathom, cannot understand why illegal 
individuals in this country who are repeat offenders of crime 
are continually released back in their communities. They 
shouldn't be in the country the first place, let alone walking 
freely in our communities to the tunes of tens and tens and 
tens of thousands.
    And, Mr. Chairman, I just express my great concern with 
this. And I yield my time.
    Mr. Russell. The gentleman yields back.
    The chair now recognizes the gentlelady from New Mexico, 
Ms. Lujan Grisham, for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    I'm going to talk about a couple of folks in my district. 
One young woman, Yuridia Loera was brought to this country when 
she was 2 years old. She currently attends the University of 
New Mexico, my alma matter. Because of DACA, frankly, she was 
able to travel to Nicaragua and volunteer at a nonprofit for 
underprivileged children. Now, Yuridia wants to attend medical 
school and provide health care to underserved rural 
communities. And given that that reflects the entire State and 
we are in dire straits currently about making sure that we can 
meet just primary care access issues pre-ACA, during ACA, and 
the growing number of minority individuals in a minority-
majority State, this is a wonderful thing in a State like mine 
and I can tell you in the Southwest in general.
    Another woman, Marian Mendez Setta is a senior at UNM and 
she's studying psychology and philosophy with a concentration 
in pre-law. And maybe she'll go to my law school also at the 
University of New Mexico. She comes from a low-income family. 
And because of DACA, she's able to work to not only pay for her 
school, but she helps her parents out financially as well. I do 
the very same for my mother, very strong cultural values in my 
Hispanic community.
    Now, Chairman Chaffetz, I think, did an interesting thing 
in this committee, and we're looking all around us at these 
beautiful walls with images of hard-working individuals who are 
dedicated to their work and their families and their 
communities. Considering that Congress failed to act on 
comprehensive immigration reform to ensure that everyone has 
the opportunity to work, learn, and contribute to the country, 
I support, frankly, the President's actions on immigration.
    However, I have heard several concerns about 
inconsistencies in how the President's actions are being 
applied. Immigration advocacy groups have been tracking reports 
concerning violations of the priorities memo. And after 
receiving hundreds of phone calls, they are hearing that ICE 
field offices may not be applying the priorities appropriately. 
Furthermore, on April 15, over 100 organizations wrote to DHS, 
Secretary Johnson, expressing similar concern. That letter 
states, ``we have received numerous reports indicating that 
several ICE offices are failing to comply with the priorities 
memo.'' Even people who do not fall under any priority 
whatsoever have been removed. Mr. Chairman, I would like to 
enter this letter into the record.
    Mr. Russell. Without objection.
    Ms. Lujan Grisham. Thank you.
    On top of this, we have most recently heard concerning 
reports that ICE may be mining DMV databases to target low or 
non-enforcement priority individuals, issues that I heard about 
well before I was elected in 2012, not particularly related to 
this priorities memo but consistent in patterns and practice 
that I find not only very concerning but offensive.
    Even as we speak, immigration advocates are fasting in 
protest at ICE headquarters just down the street over ICE's 
failure to apply prosecutorial discretion in line with the 
memo.
    Director Saldana, these mounting reports are extremely 
upsetting. Can you explain to me the inconsistencies in how the 
priorities, frankly, are being applied on the ground?
    Ms. Saldana. Yes, of course.
    As a matter, again, we're talking about priorities and the 
fact that decisions on even arresting, removal, bond are all 
made on the basis of these priorities and the judgment of the 
person of all----
    Ms. Lujan Grisham. Are you arguing that there are no 
inconsistencies? Because so far, your statement to me is it's 
being applied consistently, correctly, and adequately. I just 
want to make sure I'm following you.
    Ms. Saldana. No. No. No. I'm sorry, I didn't mean to say 
that if I did. What I'm saying is every case is different, 
Congresswoman. Every case is different. We have specifically 
trained all our folks on the legal side and on the officer side 
to look at all the facts and circumstances of that matter. So--
--
    Ms. Lujan Grisham. I want to reclaim part of my time. Does 
that mean that you don't think that--do you agree that you're 
applying the priorities memo effectively? Because I don't think 
that you are. And what I really want to know is what you can do 
to assure me and this committee of your full compliance.
    Ms. Saldana. As an example, the perception is not the 
reality. Ninety-six percent of the people we currently detain 
in our facilities meet priorities 1 and 2.
    Ms. Lujan Grisham. I'd have to say that I don't believe 
that that's accurate in my community. And I will demonstrate 
that in a much more direct way.
    And I would like, Mr. Chairman, for that to also be 
included as part of the record.
    Mr. Russell. Without objection.
    Mr. Russell. And the gentlelady's time is now expired. 
Votes have just been called.
    However. I do believe that we will have time to get through 
the next two members' questions.
    And, with that, the chair will now recognize the gentleman 
from North Carolina, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    Obviously, today, we are talking about a very emotional 
issue, this goes beyond policy and really has to deal with 
human life.
    I'm very grateful for Mr. Roth, Mr. Rodriguez, and Ms. 
Saldana for coming in today. But I do believe that we have got 
to look at very closely as far as some of the problems we are 
seeing.
    The gentlewoman from New Mexico just talked a young lady 
from DACA and how it was working out for her. Let me tell you 
another example of someone from the--that was released even 
after a drug charge, a gentleman by the name of Emmanuel 
Hernandez, in my home State of North Carolina, murdered four 
people. This was after he was a known gang member and after he 
was picked up with a drug offense. He applied for DACA, and his 
deportation was halted.
    Ms. Saldana, earlier you brought in a book and laid it 
there on the desk. The book basically is the Immigration 
National Act. And I don't know if you're familiar with section 
236-C, which is basically the detention of criminal aliens. Are 
you familiar with that section, Ms. Saldana?
    Ms. Saldana. Yes.
    Mr. Walker. Let's take a look at that. And I'll read what 
it says. It says: The Attorney General shall take into custody 
any alien who is, A, is inadmissible by reason of having 
committed any offense covered in section 212 and is deportable 
by reason of having committed any offense covered in section 
237. There's four offenses under that: Aggravated felony, 
controlled substance, firearm possession, and espionage. That's 
custody.
    Now let me jump to the section that is No. 2, that's 
release. It says: The Attorney General may release, okay, 
only--``only,'' very key word--only if the alien satisfies the 
Attorney General that the alien will not pose a danger to the 
safety of other persons or of property and is likely to appear 
for any scheduled proceeding.
    Now, what is confusing to many of our American citizens is 
why the lack of consistency here. So my question for you today 
is, can you guarantee, is it safe that the most serious, 
noncitizen illegals and aliens who have been recently ordered 
to be deported, will they be removed under the President's 
executive actions?
    Ms. Saldana. They will, sir. But with respect to those that 
are under an immigration court, I can't predict what the 
immigration court will do. And, of course, that's a large 
portion of the people that come through our proceedings. They 
end up claiming some exemption or seeking asylum or something. 
Their considerations are with USCIS and with the immigration 
courts.
    Mr. Walker. But according to the Immigration National Act 
that you brought in and the paragraph that I just read under 
release, that contradicts what the Attorney General says as far 
as grounds to be released. Do you see the contradiction in 
that?
    Ms. Saldana. We're talking about the mandatory release--
mandatory custody provisions?
    Mr. Walker. Yes.
    Ms. Saldana. We abide by those.
    Mr. Walker. Then please tell me why there is a growing 
number, millions of noncitizens continue to remain in this 
country illegally, of which some, obviously, are criminals, how 
does the Department expect to address this increased danger to 
our citizens? Tell me what is being done proactively to follow 
basically the letter of the law by the Attorney General.
    Ms. Saldana. Let me mention the, again, the, my guidance to 
the field on March 13. I've actually visited with all the field 
office directors--there's 26 of them, I believe--across the 
country and have advised them how it is we're going to go about 
our business and with respect to the considerations for any 
individual being flight risk and safety, public safety. It's 
just like any bond decisions that a court would make. And we 
have trained them accordingly as well.
    And then I want to point out the fact that I've established 
this system back in March which specifically sets an extra 
enhancement of supervisory approval over any release of a 
convicted criminal that is being considered by a supervisor 
with a signoff, by a pool of experts that I have at 
headquarters who come in and review all of these releases. I'm 
talking about March of 2015. The data that has been quoted has 
been information relating to fiscal years 2008 through 2014. I 
can't speak for what happened then. But I do know that we take 
this very seriously at the agency. And that's why I instituted 
that additional supervisory review of release of criminals.
    Mr. Walker. Final question before I run out of time here, 
what is the recidivism rate for all aliens who were previously 
apprehended, subsequently released, and who have committed a 
new crime? Do you have that number?
    Ms. Saldana. I don't have it with me, but it's very low, I 
mean, compared to certainly the recidivism rate in the 
general----
    Mr. Walker. Would you like to take, is there a round number 
that you would like to suggest what it is?
    Ms. Saldana. I can't. I won't speculate, sir. I can provide 
that number.
    Mr. Walker. Thank you, Mr. Chairman.
    I yield back.
    Mr. Russell. Gentleman or, I'm sorry, the chair now 
recognizes the gentlelady from D.C., Ms. Norton. And I would 
ask for brevity so that we can accommodate the last two members 
here.
    Ms. Norton. I will remember that, Mr. Chairman.
    There's concern in the District of Columbia because the 
D.C. Council passed a law, it allows driver's licenses. There 
have been some reports in the papers about ICE's use of DMV 
data to initiate removal proceedings against immigrants. I 
would have some concerns. And I'm wondering if you can tell me 
whether DMV databases are being used for removal purposes.
    Ms. Saldana. Not for removal purposes, ma'am. I will tell 
you, since I've been in this position, since January, I've had 
to run down more allegations and reports in the media that end 
up yielding a case quite contrary to that which was reported.
    Ms. Norton. You do have access, though, to these databases?
    Ms. Saldana. We can check in with the Departments of Public 
Safety of the different communities, may be required as part of 
an investigation, for example. But not for removal purposes.
    Ms. Norton. So you have to be granted them by the 
jurisdiction?
    Ms. Saldana. I'm pretty sure that it's the department of 
public safety itself whatever jurisdiction we're in that 
maintains that. And we would communicate with them to see if we 
could get that information.
    Ms. Norton. And if they wanted to refuse them, they could?
    Ms. Saldana. Yes.
    Ms. Norton. That's very important to clarify.
    Mr. Chairman, I have here and would like to ask be entered 
into the record the briefs filed in Texas v. The United States. 
There are 15 States plus the District of Columbia that have 
filed briefs in this case that say that there would be 
improvement in their own economies. And I ask that these briefs 
be entered into the record.
    Mr. Russell. Without objection.
    Ms. Norton. Thank you, Mr. Chairman. I yield back.
    Mr. Russell. The gentlelady yields back.
    The chair now recognizes the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Ms. Saldana, Mr. Walker asked you earlier about the 
recidivism rate for aliens who were previously apprehended, 
subsequently released, and who have committed a new crime. You 
said you do not have those numbers available?
    Ms. Saldana. We have looked at them because we had this 
question previously. And I just remember that it was 
comparative to the regular criminal----
    Mr. Carter. All right. Can you provide this committee with 
those numbers please?
    Ms. Saldana. Yes. Absolutely.
    Mr. Carter. Okay. Mr. Chairman, will you note that those 
numbers will be provided to us?
    Mr. Russell. So noted.
    Mr. Carter. Thank you. Thank you.
    Mr. Roth, in your report, you found that ICE field officers 
said they might not have access to an individual's criminal 
history or their country of origin. Is this correct?
    Mr. Roth. The criminal history in their country of origin. 
For example, if it's a Mexican national, they may not be able 
to have the criminal history that may have occurred within 
their country of origin.
    Mr. Carter. So what happens when an ICE field agent doesn't 
have this history?
    Mr. Roth. Well, they're not able to evaluate it in the use 
of their discretion.
    Mr. Carter. Do other ICE officials have this, that 
information?
    Mr. Roth. This is a vulnerability that we found during the 
course of our fieldwork that we notified ICE of. But my 
understanding is largely the answer is no.
    Mr. Carter. Why would the field officers not have that 
information but some of the other officers may have it?
    Mr. Roth. Well, I'm not 100 percent sure as to which 
countries and what parts of ICE may have access to that 
information.
    Mr. Carter. Ms. Saldana, why would some of the ICE field 
officers not have access to some of this information?
    Ms. Saldana. Well, it needs to be provided by the country--
by the country in question. And some countries are more 
cooperative with the United States than others.
    Mr. Carter. So we just depend on them to give it to us? We 
don't demand that they give it to us?
    Ms. Saldana. Oh, we can demand. But there's not much we can 
do. I'm working with the Department of State to try to help 
with respect to countries that have been recalcitrant in their 
cooperation with us to urge them to assist us. I even went to 
China a couple of months ago to sign a repatriation agreement, 
which is a very notable event, where they agreed to come to the 
United States, send two people to the United States to actually 
assist with repatriation. So we're making inroads. But, 
diplomatically, it's a huge world.
    Mr. Carter. I understand. But how can we expect the ICE 
field agents to apply prosecutorial discretion without access 
to those records? That's a lot to expect out of them, don't you 
think?
    Ms. Saldana. Yes, it is, sir. Again, as I said earlier, 
every decision we make on custody bonds, decisions to remove or 
put someone in immigration proceedings is made on the basis of 
the information we have available. That's----
    Mr. Carter. What if the information is not available? What 
do we do then?
    Ms. Saldana. With respect to other countries, we can try 
MLAT, our procedure through countries asking for information 
regarding a person's criminal history. We can try gentle 
persuasion. But when push comes to shove, you all have 
provided, the Congress has provided for certain punitive 
measures to be taken against recalcitrant countries. But that's 
something the Department of State is involved in.
    Mr. Carter. Do we, so we ask the illegal aliens, we ask 
their country for their criminal records?
    Ms. Saldana. Yes.
    Mr. Carter. But we don't always get it?
    Ms. Saldana. Right.
    Mr. Carter. And if we don't get it, then we're just--we 
can't--we can't use discretion. I mean, I really--you know, we 
want to do everything we can to give our field agents the 
opportunity to perform their work and to do their duty. Yet, if 
we can't get the information, I don't know how we're going to 
do that. Would you agree? I mean, that's a real problem.
    Ms. Saldana. It is a real problem. And we certainly 
appreciate any help this committee can provide.
    Mr. Carter. What can we do? Tell us what we can do to help 
you.
    Ms. Saldana. Well, I mean, I think there are statutes on 
the book that provide for working with our countries. And when 
they don't cooperate, perhaps going further with respect to 
some punitive measures. But that's not something ICE does. 
That's something the Department of State is charged with, the 
laws that you all, the Congress, has passed with respect to 
that.
    Mr. Carter. Okay.
    Mr. Chairman, that's all I have today. Thank you. I yield 
back.
    Mr. Russell. The gentleman yields back. I would like to 
thank our witnesses for taking the time to appear before us 
today.
    Seeing no further business, without objection, the 
subcommittees stand adjourned.
    [Whereupon, at 3:50 p.m., the subcommittees were 
adjourned.]









                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                 [all]
</pre></body></html>
